         Office of Inspector General




September 2, 2005

JERRY D. LANE
MANAGER, CAPITAL METRO AREA OPERATIONS

SUBJECT:      Audit Report – Surface Transportation – Bulk Mail Center Highway
              Transportation Routes – Capital Metro Area
              (Report Number NL-AR-05-009)

This report presents results from our Bulk Mail Center Highway Transportation Routes
audit (Project Number 04YG013NL007). Our objectives were to evaluate the
effectiveness of bulk mail center routes and identify opportunities for cost savings. This
report responds to a request from the vice president, Network Operations Management,
and focuses on routes controlled by the Capital Metro Area.

The Postal Service could save about $800,000 over the term of existing Capital Metro
Area bulk mail highway contracts by canceling, not renewing, or modifying ten trips.
The savings represent potential funds that could be put to better use and will be
reported as such in our Semiannual Report to Congress. The Postal Service could
eliminate or modify the trips without negatively affecting service because trip volume
was low and mail could be consolidated on other trips. We recommended the manager,
Capital Metro Area Operations, verify the actual cancellation, modification, or
substitution of the ten trips.

Management agreed with our finding and recommendation. Management stated that
they had already implemented all contract service changes as of August 13, 2005.
Management’s comments and our evaluation of these comments are included in this
report.

The Office of Inspector General (OIG) considers recommendation 1 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. This recommendation
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.
We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Surface Transportation - Bulk Mail Center Highway Transportation Routes –           NL-AR-05-009
 Capital Metro Area

                                         INTRODUCTION
 Background                     Bulk mail includes magazines, advertising, and
                                merchandise shipped by major mailers like publishers,
                                catalog companies, or online retail companies. It is
                                processed by a system of 21 bulk mail centers and other
                                facilities nationwide. The Postal Service spends more than
                                $500 million annually on contracts to transport bulk mail
                                over highway networks. Contracted routes are controlled by
                                individual Postal Service areas.




     Capital Metro Area
     Southern Maryland
         combined
 Processing and Distribution
         Center and
      Bulk Mail Center.




                                This report focuses on the routes controlled by the Capital
                                Metro Area and responds to a request from the vice
                                president, Network Operations Management.

 Objectives, Scope,             The objectives of our audit were to evaluate the
 and Methodology                effectiveness of scheduled bulk mail center highway
                                transportation routes and to identify opportunities for cost
                                savings.

                                Using Postal Service computer-generated data, we
                                identified 343 trips operated under 27 Capital Metro Area
                                contracts that had at least 1 bulk mail center service point.
                                In preparation for our work, we provided area officials and
                                Postal Service managers with the list of Capital Metro Area
                                contracts we intended to audit. During our work, we
                                interviewed officials at headquarters and in the Capital
                                Metro Area; reviewed relevant Postal Service policies and
                                procedures; and interviewed managers and employees. We
                                consulted with financial analysts, computer analysts, and
                                                     1
Surface Transportation - Bulk Mail Center Highway Transportation Routes –          NL-AR-05-009
 Capital Metro Area

                                other subject matter experts; evaluated mail volume and the
                                type of mail carried; considered service standards; and
                                analyzed all 343 trips.

                                We conducted work associated with this report from
                                March through August 2005, in accordance with generally
                                accepted government auditing standards, and included such
                                tests of internal controls as were considered necessary
                                under the circumstances. We discussed our observations
                                and conclusions with appropriate management officials and
                                included their comments where appropriate.

                                We examined computer data in management’s
                                Transportation Contract Support System and Transportation
                                Information Management Evaluation System. We did not
                                audit or comprehensively validate the data; however, we
                                noted several control weaknesses that constrained our
                                work. For example, the Transportation Information
                                Management Evaluation System had missing records and
                                inaccurate trailer load volumes.

 Prior Audit Coverage           Since September 2002, the Office of Inspector General has
                                worked with the Postal Service to reduce surface
                                transportation. As a result, we have issued 15 audit reports
                                that identified potential savings exceeding $71.6 million over
                                the life of eliminated or reduced transportation contracts.
                                For more detailed information about these audits, see
                                Appendix A.




                                                     2
Surface Transportation - Bulk Mail Center Highway Transportation Routes –                NL-AR-05-009
 Capital Metro Area

                                        AUDIT RESULTS

 Contracted Bulk Mail           The Postal Service could save about $800,000 over the
 Center Highway Trips           term of existing Capital Metro Area bulk mail highway
                                contracts by canceling, not renewing, or modifying ten trips.
                                The Postal Service could eliminate or modify the trips
                                without negatively affecting service because trip mail
                                volume was low and mail could be consolidated on other
                                trips. As indicated below, 20 percent of the affected trips
                                will expire within 1 year. The other 80 percent have 1 to
                                3 years remaining.
                                           PROPOSED NONRENEWALS AND CANCELLATIONS

                                           TRIP                 AFFECTED      NUMBER     ESTIMATED
                                         CATEGORY                 TRIPS       OF TRIPS    SAVINGS

                                Contracts expiring within
                                one year                         20 percent          2      $202,048

                                Contracts expiring in one to
                                three years                      80 percent          8      $601,012

                                All terminated trips            100 percent         10      $803,060

                                Postal Service policy requires transportation managers to
                                balance service and cost. Although managers continually
                                strive to optimize transportation through aggressive cost
                                cutting efforts—such as their breakthrough productivity
                                initiative—transportation requirements are dynamic and
                                constantly change. Consequently, the Postal Service could
                                attain additional savings through further service reductions
                                by not renewing unnecessary trips that are scheduled
                                to expire within one year, or by canceling unnecessary
                                trips that are currently contracted to continue for one to
                                three years. The savings we identified included savings
                                from nonrenewable trips, plus savings from trip
                                cancellations net of cancellation fees totaling approximately
                                $71,875.

 Cooperative Effort and         As a result of our continuing efforts to partner with and bring
 Rapid Implementation           value to the Postal Service, we had ongoing communication
                                with Capital Metro Area officials throughout our audit. We
                                provided Capital Metro Area officials with a list of our
                                specific trip proposals and the officials reviewed each
                                proposal in conjunction with their own assessment of
                                area-wide network requirements. After the area's review,
                                we discussed our proposals and area operational needs
                                with area officials and made appropriate adjustments. As a
                                result of the cooperative effort, the area agreed with the
                                ten proposals outlined in Appendix B.
                                                       3
Surface Transportation - Bulk Mail Center Highway Transportation Routes –           NL-AR-05-009
 Capital Metro Area



 Recommendation                 We recommend the manager, Capital Metro Area
                                Operations:

                                    1. Verify the actual cancellation, modification, or
                                       substitution of the ten trips with which Postal Service
                                       managers agreed and provide the date action was
                                       taken.

 Management’s                   Management agreed with our finding and recommendation.
 Comments                       They stated that they had finalized contract negotiations and
                                that they had already implemented all recommended
                                service reductions as of August 13, 2005. They also stated
                                that during contract negotiations, the contractors waived
                                indemnity fees. Management’s comments, in their entirety,
                                are included in Appendix C of this report.

 Evaluation of                  Management’s comments are responsive to our finding and
 Management’s                   recommendation. We applaud the immediate action taken
 Comments                       by the Capital Metro Area, and we consider the actions the
                                area has taken or planned sufficient to address the issues
                                we identified in the finding.




                                                     4
Surface Transportation - Bulk Mail Center Highway Transportation Routes –                                                          NL-AR-05-009
 Capital Metro Area


                                                                    APPENDIX A

                                                         PRIOR REPORT COVERAGE

                                                                                          Number of
                                                                                             Trips                    Number of  Number of
                                                                                         Identified for               Trips With Trips With Number of
                                                                               Report     Elimination Potential         Which      Which      Trips
                                                                             Final Issue       or       Savings      Management Management Identified by
                        Report Name                            Report Number    Date     Modification Identified       Agreed    Disagreed Management

Highway Network Scheduling - Pacific Area                      TD-AR-02-003 9/24/2002           158     $4,500,417            76            34        48
Highway Network Scheduling - Northeast Area                    TD-AR-03-002 11/25/2002           18        776,992            10             8         0
Highway Network Scheduling - Capital Metro Area                TD-AR-03-007 3/28/2003            34      1,144,218            20            14         0
Highway Network Scheduling - New York Metro Area               TD-AR-03-008 3/31/2003            32        470,123            12            20         0
Highway Network Scheduling - Southwest Area                    TD-AR-03-010 7/11/2003           249      5,989,082           148           101         0
Highway Network Scheduling - Western Area                      TD-AR-03-013 9/23/2003            70      2,721,530            30            40         0
Highway Network Scheduling - Southeast Area                    TD-AR-03-014 9/26/2003           101     11,352,881            23            24        54
Highway Network Scheduling - Eastern Area                      TD-AR-03-015 9/30/2003           181     10,577,367           128            53         0
Highway Network Scheduling - Great Lakes Area                  NL-AR-04-003 3/29/2004            72      5,352,877            48            22         2
Bulk Mail Center Transportation Routes - Great Lakes Area      NL-AR-04-004 9/29/2004            96      7,660,533            49             7        40
Bulk Mail Center Transportation Routes - Eastern Area          NL-AR-05-003 3/17/2005            35      4,791,570            29             6         0
Intermodal Rail and Highway Transportation - Pacific Area      NL-AR-05-004 3/18/2005             0      1,046,240             0             0         0
Bulk Mail Center Transportation Routes - Southeast Area         NL-AR-05-005       3/18/2005     52      6,563,582            52             0         0
Bulk Mail Center Transportation Routes - New York Metro Area NL-AR-05-007 6/09/2005              16      1,499,371            16             0         0
Bulk Mail Center Transportation Routes - Southwest Area      NL-AR-05-008 8/03/2005              79      7,175,912            76             0         3


                           Totals                                    15                        1,193   $71,622,695           717           329       147




                                                                               5
Surface Transportation - Bulk Mail Center Highway Transportation Routes –                                                 NL-AR-05-009
 Capital Metro Area



                                                                APPENDIX B

                                TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                       POSTAL SERVICE MANAGERS AGREED


Effective                   Highway
 Date of     End Date       Contract                                                           Annual                                    Estimated
  Last          of           Route         Trip           Specific             Origin to       Budget      Estimated      Indemnity        Cost
Change       Contract       Number        Number      Recommendation          Destination       Cost      Contract Cost      Fees         Savings
                                                                             Frederick, MD
                                                                                P&DF to
4/16/2005    10/10/2005      217Y1           33         Trip Elimination                        $44,608         $89,216          $0         $89,216
                                                                              Washington,
                                                                               D.C. BMC
                                                                              Washington,
                                                                              D.C. BMC to
4/16/2005    10/10/2005      217Y1           34         Trip Elimination                         56,416         112,832           0         112,832
                                                                             Frederick, MD
                                                                                 P&DF

                                                                            United Litho, VA
                                                       Remove AMTRAK
3/19/2005    6/30/2008       20111           13                             to Washington,       12,722          37,106       4,241          32,865
                                                         stop on trip
                                                                               D.C. BMC

                                                                            United Litho, VA
                                                       Remove AMTRAK
3/19/2005    6/30/2008       20111           15                             to Washington,        2,640           7,700         880           6,820
                                                         stop on trip
                                                                               D.C. BMC

                                                                            Baltimore, MD
                                                                              P&DC to
5/14/2005    6/30/2007       20291          803         Trip Elimination                         20,833          39,929       3,472          36,457
                                                                             Washington,
                                                                              D.C. BMC




                                                                             6
Surface Transportation - Bulk Mail Center Highway Transportation Routes –                                                       NL-AR-05-009
 Capital Metro Area



 Effective                   Highway
  Date of     End Date       Contract                                                              Annual                                      Estimated
   Last          of           Route         Trip            Specific            Origin to          Budget        Estimated      Indemnity        Cost
 Change       Contract       Number        Number       Recommendation         Destination          Cost        Contract Cost      Fees         Savings

                                                                               Washington,
                                                                               D.C. BMC to
5/14/2005     6/30/2007       20291          804         Trip Elimination                              20,833          39,929       3,472          36,457
                                                                              Baltimore, MD
                                                                                  P&DC


                                                                               Baltimore, MD
                                                                              IMF and P&DF
5/14/2005     6/30/2007       20291          881         Trip Elimination                              27,149          52,035       4,525          47,510
                                                                              to Washington,
                                                                                 D.C. BMC

                                                                               Washington,
                                                                               D.C. BMC to
5/14/2005     6/30/2007       20291          882         Trip Elimination                              27,149          52,035       4,525          47,510
                                                                              Baltimore, MD
                                                                              IMF and P&DF
                                                                               Washington,
                                                                               D.C. BMC to
5/14/2005     6/30/2008       23390          815         Trip Elimination                              76,876         224,222      25,625         198,597
                                                                               Norfolk, VA
                                                                                  P&DC
                                                                               Norfolk, VA
                                                                                P&DC to
5/14/2005     6/30/2008       23390          816         Trip Elimination                              75,405         219,931      25,135         194,796
                                                                               Washington,
                                                                                D.C. BMC

               TOTALS                         10                                                   $364,630*         $874,935     $71,875        $803,060


BMC           Bulk Mail Center
P&DC          Processing and Distribution Center
IMF           Incoming Mail Facility
P&DF          Processing and Distribution Facility
* Due to rounding differences from the source documentation, totals vary slightly when recalculated.



                                                                              7
Surface Transportation - Bulk Mail Center Highway Transportation Routes –   NL-AR-05-009
 Capital Metro Area


                    APPENDIX C MANAGEMENT’S COMMENTS




                                                     8
